                     Office of Inspector General
                    Corporation for National and
                             Community Service




    Semiannual Report
      to Congress
October 1, 2008 - March 31, 2009
     Fiscal Year 2009 Semiannual Report No. 1




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
        Telephone (202) 606-9390
        Facsimile (202) 606-9397
          Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                       NATIONAL &
                                       COMMUNITY
                                       SERVICEt.Ut
                           OFFICE OF INSPECTOR GENERAL


                                                         April 30, 2009




Nicola Goren
Acting Chief Executive Officer
Corporation for National and Community Service
120 1 New York Avenue, NW
Washington, DC 20525

Dear Ms. Goren:

        I am pleased to present you with the Office ofInspector General's Semiannual Report to
Congress for the first half of Fiscal Year 2009. This report details OUT significant audits and
investigations, as well as major issues and trends identified by the 0 10 during the period October-
I, 2008, through March 3 1, 2009.

       Issuance of this Semiannual Report to Congress is required under the Inspector General
Act of 1978, as amended. The Act also requires that you submit thi s report, along with your
comments, to Congress and members of the Corporation's Board of Directors by May 29, 2009.
My office will supply you with additional copies of the final report, including your comments, to
help you fulfi ll thi s requirement.

       On the tenth business day following our receipt of your transmittal letter to Congress, we
will post this report on our public web site.

       If you have any questions about this report, please call me at (202) 606-9390.




                                                         Gerald Walpin
                                                         Inspector General




                        1201 New York Avenue, NW    *Suite 830, Wa~ hin glon , DC 20525
                          202-606-9390 * HOlline: 800-452-8210 " ~w.cncsQig.gQY

                           Senior Corps *   AmeriCorps   *   Learn and Serve America
                                                                                                    Table Of Contents


A Message From Inspector General Gerald Walpin.............................................. 1

Audit Section............................................................................................................ 5
      Audit Results ................................................................................................................................ 7
      Significant Issues ........................................................................................................................ 7
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 8

Investigations Section........................................................................................... 11
      Investigative Results ................................................................................................................. 13
      Significant Cases And Activity ................................................................................................. 13

Review Of Legislation And Regulations .............................................................. 17
      Reauthorization .......................................................................................................................... 19

Statistical And Summary Tables .......................................................................... 21
      I.      Inspector General Act Reporting Requirements ........................................................... 23
      II.     Audit List ........................................................................................................................... 24
      III.    Reports With Questioned Costs ..................................................................................... 25
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 26
      V.      Summary of Audits With Overdue Management Decisions ......................................... 27
      VI.     Reports Described In Prior Semiannual Reports Without Final Action ...................... 28
      VII.    Proposed Management Decisions Under Review ......................................................... 29


                              About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service (“Corporation”),
along with this Office of Inspector General (“OIG”), in the National and Community Service Trust Act
(42 U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential
appointee, the OIG conducts audits and investigations of Corporation programs, including
AmeriCorps, Volunteers In Service to America, the National Civilian Community Corps, Learn and
Serve America, and Senior Corps. The OIG also examines Corporation operations, and State
community service programs that receive and distribute the majority of Corporation grant funds.
Based on the results of our work, and in addition to our audit reports and criminal and civil referrals
resulting from our investigations, the OIG recommends policies to the Corporation to promote and
enhance economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of Fiscal Year 2009. It is being transmitted to the Corporation’s Chief Executive Officer,
Board of Directors, and Members of Congress.
                                                  Inspector General’s Message


           A Message From Inspector General
                              Gerald Walpin
April 30, 2009

I’m pleased to share with you our Semiannual Report to Congress
and provide you with insights into the achievements of the Office of
Inspector General (“OIG”) for the period October 1, 2008, to March
31, 2009. During this reporting period, the OIG continued its
proactive oversight of the Corporation for National and Community
Service (“Corporation”) and its programs, and laid out plans to meet
the challenges of an unprecedented expansion of the Corporation’s
volunteer efforts.

Our Audit Section issued 10 reports, resulting in $106,000 in
questioned costs, the identification of $57,000 of funds that could be
put to better use (mostly consisting of questioned member education
awards), and numerous recommendations for improvement in
program and Corporation operations and policies, which, if adopted,
would effect substantial, albeit incalculable, monetary savings and protections. Our Investigations
Section opened 24 new cases and closed 23 actions, resulting in the recovery of more than $246,000
in taxpayer dollars and the potential recovery of more than $3.6 million for reinvestment in national
service.

On the audit front, I’m pleased to report that we were able to issue a clean opinion on the
Corporation’s Fiscal Year 2008 Financial Statements and, in a separate report, cite substantial
improvement in the Corporation’s adherence to the stringent requirements of the Federal Information
Security Management Act.

While issuing a full complement of audit reports on Corporation grantees, our Audit Section also
launched a pair of projects designed to improve the efficiency of the Corporation’s operations. They
included an in-depth study of the Corporation’s formulation and execution of its Fiscal Year 2008
Budget and an audit of the policies and procedures utilized by the Office of Grants Management to
screen new grantees and ensure that they have the financial systems, policies and expertise in place
properly to handle Federal funds. The results and recommendations stemming from both projects will
be reported in a subsequent Semiannual Report to Congress, and in special reports to Congress, as
appropriate.

Our auditors and investigators also pooled their talents in a number of ongoing actions, including
major cases involving United States Veterans Initiative, a California-based grantee serving homeless
veterans; and St. HOPE Academy, which operated an AmeriCorps program in Sacramento, CA.
(Unfortunately, shortly after the end of this reporting period, the Corporation improperly acted to
scuttle the OIG’s fact-finding and work on the St. HOPE matter, an action on which Congress will be
separately advised.)

These successes were achieved despite fiscal limitations, the result of a Fiscal Year 2008 OIG
Budget reduction that was exacerbated by the Continuing Resolution that was in effect for almost the
entire reporting period.

At one point, we had to suspend temporarily travel by our investigators and auditors. We were able
to meet our audit responsibilities during this period, although less efficiently, by making increased use
of teleconferencing with audited parties and contract auditors. We also received investigative



October 1, 2008 – March 31, 2009                                                                   1
Inspector General’s Message

 assistance from the Corporation’s State Directors and other field personnel, who helped our agents
 with their initial evaluations of reports of waste, fraud and abuse.

 Actions by Congress and the new Administration during this reporting period set the stage for an
 unprecedented expansion of the Corporation’s national service programs. The American Recovery
 and Reinvestment Act of 2009 allocated $200 million in stimulus funds to the Corporation to create
 10,000 additional AmeriCorps positions and to increase the ranks of Volunteers in Service to America
 (“VISTA”) by 3,000 members.

 The Act also allocated $1 million to the OIG, which is charged with providing a high level of oversight,
 transparency, and accountability for every taxpayer dollar invested in expanded service programs.
 Working in concert with the Office of Management and Budget, the Council of the Inspectors General
 on Integrity and Efficiency, and the Recovery Accountability and Transparency Board, we began our
 oversight activities in earnest, including the establishment of a separate page within our Internet
 website (www.cncsoig.gov/recovery.html) that will keep the public apprised of our work. We also
 began the process of hiring an additional audit manager, auditor, and investigator, all of whom will
 permit us to assign necessary audit and investigative staff to track the allocation, use and impact of
 Act funds.

 At the same time, the OIG prepared to meet the oversight challenge embodied in the Edward M.
 Kennedy Serve America Act, which was approved by Congress during this reporting period and
 subsequently signed into law on April 21, 2009, by President Obama. This Act, along with proposed
 increased budget appropriations, will, in the years ahead, triple the number of Corporation-supported
 volunteers in the field and create a whole new set of specialized volunteer Corps that will enlist youth,
 retirees, veterans and other segments of our population to focus on specific national and community
 needs.

 Our expanded oversight effort will be assisted by a new Case Management System that was put into
 operation during this reporting period for our Investigations Section. This Internet-based system,
 replacing one with severely limited capabilities, is making it easier for our agents to retrieve, compile
 and track all data related to their investigations. Also during this period, we continued planning work
 on a similar high-tech data tracking system for the Audit Section.

 I regret to report that we have observed a decline in the Corporation’s recognition of the importance
 of the rules established to protect against misuse of Federal grant funds. For example, the
 Corporation has watered down the grant requirement that AmeriCorps members sign a contract with
 the grantee before commencing service. That requirement ensured that each member knows his/her
 responsibilities and rights before starting service and fixed the date on which member health
 insurance would cover any service-related injuries. AmeriCorps Grant provisions expressly
 mandated that requirement: Section 7.b of the 1994 Grant Provisions stated, “the Grantee must
 require that participants sign contracts . . .,” and Section B.8.d identified four conditions that had to be
 met before a member was enrolled, including the condition that the individual “has signed a member
 contract.” In mid-2008, however, the Corporation changed its Grant Provisions so that they now
 state, “the grantee should ensure that the contract is signed before the commencement of service so
 that members are fully aware of their rights and responsibilities.” (emphasis added). The effect of the
 change from a requirement to precatory language, which was made over the OIG’s objection, is to
 weaken the requirement so that, in application, it is unlikely to concern any grantee or member.
 Indeed, the Corporation recently credited service time, which is used to qualify members for an
 education award, for three members who completed their terms of service without ever having signed
 a contract.

 This lack of adherence to provisions by the Corporation is not an isolated aberration. As noted in our
 most recent Semiannual Report, fully 24 percent of the 3,000 members tested in the course of our 30
 FY 2008 audits of grantees and subgrantees performed service prior to signing their member
 contracts.




 2                                                              October 1, 2008 – March 31, 2009
                                                 Inspector General’s Message

In the same vein, the Corporation has chosen to ignore its provision that requires AmeriCorps
members to undergo an end-of-term evaluation by the grantee before they can be approved for a
second term of service. The Corporation’s AmeriCorps program regulation, 45 C.F.R. § 2522.220(d),
Participant performance review, states in part: “For purposes of determining a participant’s eligibility
for a second term of service or additional term of service and/or for an education award, each
AmeriCorps program will review the performance of a participant mid-term and upon completion of a
participant’s term of service.” In multiple instances, when the OIG challenged the costs associated
with second-term members who had not undergone the mandatory evaluation, the Corporation
disagreed. It stated that the members’ exit form submitted by the grantee to the Corporation sufficed
as formal notification that the members had successfully completed the first term. The OIG believes
that this position is contrary to Corporation regulations and that the exit forms do not provide
adequate evidence that a member’s actual first-term performance is deserving of approval for a
second term.

The Corporation’s motivation for cutting corners in policing compliance with its own rules appears to
stem from a desire, albeit misguided, to avoid making its grantees unhappy. It is the OIG’s position
that these rules were adopted to create a structure which helps to ensure against waste, fraud and
abuse of Federal funds, and should be enforced by the Corporation, not ignored.

On the technology front, during this reporting period, our staff redesigned the OIG’s Internet website
(www.cncsoig.gov), which now features easy-to-use links to news and reports and multi-media
briefings on fraud awareness and the audit process. The nonprofit Project on Government Oversight
singled out our website for praise in a March 20, 2009, report on the Federal Inspectors General. It
characterized our public website as “well-managed, easy to read and negotiate, and includes good
information for whistleblowers, almost showering the site visitor with information on waste, fraud, and
abuse, and how to report violations.”

Finally, I enjoyed speaking to and meeting those who do the actual work for the Corporation, in
separate conferences of substantial numbers of Corporation staff, grantees’ staff, and State
Commission representatives, which allowed me to describe the work of OIG and the fraud, waste and
abuse flashing red lights to which they must be quick to react.

As we head into an ambitious new era in the national service movement, my staff and I look forward
to the inherent challenges and the opportunity to work with the Corporation, its grantees and
stakeholders in a cooperative but independent manner, and thus continue to perform its obligations to
Congress and the public. In that manner, we can continue to help ensure that every dollar allocated
to national service is wisely used and has the maximum positive impact on the myriad social and
economic needs of our communities.




October 1, 2008 – March 31, 2009                                                                  3
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2008 – March 31, 2009                                        5
                                                                                 Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued 10 reports as listed on page 24. Of special
 note is the fact that our audit of the Corporation’s Fiscal Year 2008 Financial Statements and National
 Service Trust Schedules resulted in clean opinions and no material weaknesses. But the Financial
 Statement audit identified one significant deficiency related to business continuity controls over
 information technology, an outgrowth of the serious technology challenges the Corporation faced
 during much of FY 2008. We do not expect that significant deficiency to recur in our FY 2009 audit.

 There was better news on the information technology front in our FY 2008 Federal Information
 Security Management Act (FISMA) Independent Evaluation of the Corporation’s systems. We found
 that the Corporation has taken significant steps to enhance its information security program and
 address issues identified in the prior FISMA report. Our FY 2008 FISMA report specified six
 recommendations for improvement, including a repeat of our recommendation, first made in FY 2007,
 that the Corporation improve its oversight of Corporation contractors and grantees that store and
 process information on behalf of the agency, and also ensure that they meet FISMA system security
 requirements.

 The five grantee audits issued during this period, which focused on the Corporation’s State
 Commission partners and National Direct grantees, questioned more than $106,000 in claimed costs
 and recommended that more than $57,000 in funds be put to better use. There were nine audits in
 process at the end of this reporting period.

 During this reporting period the Audit Section devoted considerable resources to audits and reports in
 support of major actions undertaken by the OIG Investigations Section, including work requested by
 prosecutorial authorities. These cooperative efforts have allowed the OIG to take advantage of the
 full range of its expertise in dealing, with major cases involving allegations of waste, fraud and abuse.

 At the invitation of the Corporation’s Internal Control and Analysis Team, the Audit Section staff
 presented two fraud awareness training sessions to Corporation managers. These sessions were
 part of the Corporation’s annual Internal Control Self-Assessment training program. The sessions
 featured discussions of the leading indicators of fraud. They also stressed schemes previously
 perpetrated against the Corporation, including falsification of member and employee time sheets,
 grantee financial records, and grantee expense claims.


Significant Issues
 Corporation Internet Use & Information Privacy Study Report

 We re-evaluated compliance by the AmeriCorps*National Civilian Community Corps (“NCCC”) with
 the Corporation’s Internet Acceptable Use and privacy policies, an issue we previously examined in
 FY 2006. We found that the Corporation’s policies on acceptable use of information resources and
 privacy, which cover NCCC officials and members, are in line with the latest Federal guidelines and
 mandates. We also found no Personally Identifiable Information stored on any of the evaluated
 computers that are available to NCCC members and staff. However, our evaluation again disclosed
 instances of inappropriate use of Corporation information systems by persons who used the
 equipment to access and view pornography. We also found that NCCC management was not
 protecting Corporation information resources in accordance with acceptable use policy. For example,
 we found that the doors to an NCCC campus computer lab were left unlocked at times, leaving the
 facility and the computers in it vulnerable to abuse and theft.




 October 1, 2008 – March 31, 2009                                                                   7
Audit Section

 Audit Report 09–07 – Grants Awarded to The Corps Network

 The auditors questioned $61,612 as unallowable grant costs and $37,928 of education awards and
 also found that the financial systems of The Corps Network, a National Direct Grantee, and its
 subgrantees did not adequately account for and report grant costs. The auditors also noted numerous
 and pervasive instances of noncompliance with provisions of Federal laws, regulations and grant
 award provisions. In addition to the individual recommendations contained in the report, the auditors
 recommended that the Corporation direct The Corps Network to develop a comprehensive action
 plan to address and correct the deficiencies noted for all of its subgrantees, not just those tested
 during the engagement.


Proposed Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the Corporation’s Proposed Management Decisions (“PMD”s) for
 the following engagements:

 •OIG Report 08-15, Agreed-Upon Procedures of Corporation for National and Community Service
 Grants Awarded to the Montana Office of Community Service.

 •OIG Report 08-14, Agreed-Upon Procedures of Corporation for National and Community Service
 Grants Awarded to ServeMinnesota.

 •OIG Report 08-04, Agreed-Upon Procedures of Corporation for National and Community Service
 Education Award Grant Awarded to United States Veterans Initiative.

 •OIG Report 08-17, Agreed-Upon Procedures for Corporation for National and Community Service
 Grants Awarded to the Local Initiative Support Corporation.

 •OIG Report 07-21, Audit of Corporation for National and Community Service Grant Awarded to
 United States Veterans Initiative, Inc.

 •OIG Report 08-19, Agreed-Upon Procedures of Corporation for National and Community Service
 Grants Awarded to Equal Justice Works.

 Significant disagreements involved the following issues:

 Creation of Potential Debt

 The Corporation disallowed education awards identified and questioned in an OIG Audit. However, it
 also established a potential debt for portions of the education awards not yet used by the AmeriCorps
 members involved. The OIG concurs with the Corporation that the members involved, who believed
 in good faith that they had successfully completed the program, should be able to use the full
 education awards. The OIG does not concur with establishing a potential debt because there is no
 mechanism in place to track when or if the member accesses the education award. Furthermore, the
 Corporation should not bear the burden of tracking open items which clearly result from grantee
 errors. The OIG contends that the disallowed education awards should immediately be charged to
 the grantee. The grantee should also be notified that it is being held liable for this amount, subject to
 the grantee’s right to obtain reimbursement if, after the period of time has expired for the member to
 use the award (generally within seven years of service completion), the member has not used his or
 her award.

 End-of-Term Evaluation

 The OIG questioned the costs associated with AmeriCorps members’ second term of service, citing
 the fact that the members were ineligible due to the lack of a mandatory evaluation that was to have


 8                                                             October 1, 2008 – March 31, 2009
                                                                             Audit Section

been completed by the grantee at the end of the members’ first term of service. The Corporation
disagreed, stating that the member exit forms submitted to the Corporation by the grantees sufficed
as formal notification that the members had successfully completed the first term. This position is
contrary to Corporation regulations, which require an end-of-term evaluation, and mandate that this
evaluation be used as the primary assessment tool for determining a member’s eligibility for a second
term of service. The OIG believes that evidence of the mere completion of the first term, which is all
that the exit forms shows, is not sufficient to document that a member’s service performance is
deserving of approval for a second term.




October 1, 2008 – March 31, 2009                                                                9
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




October 1, 2008 – March 31, 2009                                        11
                                                                Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 24 new cases and closed 23
 cases, including 8 matters with significant findings. Our efforts resulted in the recovery of more than
 $246,290 in taxpayer funds and the potential recovery of more than $3.6 million from persons and
 programs found to have engaged in waste, fraud or abuse of Corporation resources.

 Our investigations also resulted in the successful criminal prosecutions of two individuals and 12
 matters that are pending adjudication. We also identified $300,000 in cost avoidance savings.

 In an effort to prevent future instances of fraud, waste and abuse, the OIG Investigations and Audit
 Sections have jointly developed and made several recommendations to Corporation management
 that are designed to improve program operations and oversight.

 Proactive prevention is also the goal of our Fraud Awareness Program. OIG investigators regularly
 make multimedia training presentations to Corporation employees, program officials and members.
 In addition, investigators conduct unannounced visits to program sites during their official travel.
 These visits assist Corporation management in determining if grantees are adhering to goals and
 objectives and give grantees the opportunity to give feedback on how effectively Corporation
 management is supporting their programs. We are also developing a specialized Fraud Awareness
 Program for grantees and individuals that will be receiving Recovery Act funds.

 Consisting of an Assistant Inspector General for Investigations, six agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include hundreds of grantees and subgrantees in
 all 50 states and U.S. territories. We were assisted in our work by 36 calls, letters and e-mails to our
 Fraud Hotline and by referrals from Corporation managers, employees and program participants.


Significant Cases And Activity
 Lack of Program Oversight by Grantee Boards of Directors, Oversight Committees and City
 Administrators

 The OIG has identified a pattern of failure of oversight on the part of members of grantee boards of
 directors, local government administrators and program executive directors. By not exercising their
 responsibilities and ensuring that the proper checks and balances are in place, they have placed
 Federal program funds in jeopardy. In many cases, officials charged with oversight claimed that they
 merely trusted the individual(s) who were involved in fraud, waste and abuse to properly manage their
 program(s) and safeguard Federal funds. In this environment, a number of program directors were
 able to embezzle funds, misuse program members, and redirect Federal funds to support non-
 Federal activities and other grantee expenses. They included:

 A director of a Retired and Senior Volunteer Program, sponsored by a local government in West
 Virginia, stole more than $100,000 in Federal and local program funds, which she diverted to pay the
 balances of two program credit cards she had used to make personal purchases and obtain cash
 advances. Additionally, the director forged and negotiated several checks without detection by city
 officials. If those officials had provided proper oversight and followed established policies, the
 director’s embezzlement scheme could have been detected and halted much earlier.

 A director of a Texas AmeriCorps program fraudulently drew down more than $200,000 in Federal
 program funds to cover the program’s grant matching share and non-grant operational costs. If the
 grantee’s Board of Directors had implemented adequate checks and balances and conducted
 periodic reviews of the program’s financial transactions, it would have been alerted to the fraudulent
 activity in a timelier manner.


 October 1, 2008 – March 31, 2009                                                                 13
Investigations Section

 A site Program Coordinator of a Georgia Foster Grandparent Program stole more than $50,000 in
 Federal program funds over a two-year period. The OIG investigation disclosed that the program
 coordinator submitted fraudulent time sheets in the names of volunteers who had either departed the
 program or were on extended unpaid leaves of absence. When the volunteers’ checks arrived at the
 program site, the program coordinator diverted them, forged endorsement signatures and deposited
 them into her personal checking account. If the grant sponsor or oversight agencies had conducted
 periodic checks of the site, they would have been able to detect the continued payment of volunteers
 who had left the program or were on leave.

 A director of a Kansas Senior Companion Program fraudulently utilized the program’s bank/debit card
 to draw down, without detection, more than $20,000 in program funds over a 16-month period to
 support her gambling habit. The OIG investigation disclosed that, on 95 separate occasions, the
 director used the program’s credit card at casinos to finance her gambling. If the grant sponsor’s
 Board of Directors had implemented adequate checks and balances and conducted periodic reviews
 of the program’s financial transactions, these illicit transactions would have alerted management to
 the fraudulent activity in a much timelier manner.

 Improper Payment of AmeriCorps Member Living Allowances

 A Virginia State and National Direct AmeriCorps grantee overcharged the Corporation grant
 $90,714.95 in member living allowances. The OIG investigation disclosed that the grantee paid its
 AmeriCorps members living allowances in excess of the maximum allowed under the grant. Grantee
 officials then improperly charged 85 percent of these unallowable living allowance totals to the
 government’s share of the grant, resulting in the overcharge to the Corporation.

 A Kentucky AmeriCorps Program overcharged the Corporation grant when it improperly paid
 $46,809.44 in living allowances to its members. The OIG investigation showed that program officials
 improperly paid its members the full allowable 12-month living allowance amount even if the members
 had served less than the required 12 months. Corporation provisions require that living allowances
 be paid to members over the period of the grant in equal installments, and only to support members
 during the period in which they are serving. If a member completes or terminates his/her service
 early, payment of the benefit is to be immediately halted.

 Improper Awarding of Education Awards for Non-Compelling Personal Reasons

 AmeriCorps and VISTA members who complete their term of service may be eligible to receive an
 education award. A full-time member who successfully completes 1700 hours of service during a
 one-year term of service is eligible for an education award of $4,725. If a member departs prior to the
 completion of his or her term of service for compelling personal reasons, as outlined in 45 C.F.R. §
 2522.230, the member may be eligible for a prorated education award. The regulation outlines the
 circumstances in which the member may be eligible for the prorated award. These include
 circumstances beyond the member’s control such as a premature closing of the program, disability,
 serious illness or death of a family member, natural disaster, relocation of a spouse, and military
 service. Such reasons as enrolling in school, obtaining employment (other than moving from welfare
 to work) and dissatisfaction with the program are not considered compelling personal circumstances.

 An OIG investigation found that a Virginia State and National Direct AmeriCorps Program Director
 improperly certified seven AmeriCorps members to receive pro-rated education awards totaling
 $20,949.64. The unallowable compelling personal reasons cited by the director for the seven awards
 ranged from drug abuse relapse to obtaining employment.

 Suffering a Loss of Government Property through Neglect and Waste

 During a site visit to an AmeriCorps*National Civilian Community Corps (NCCC) campus, OIG
 Special Agents noted a foul odor in the main building. An inquiry by the agents disclosed several
 storage rooms containing Government-purchased uniforms, program equipment and supplies in a
 state of total disarray.

 14                                                          October 1, 2008 – March 31, 2009
                                                                                                         Investigations Section

An inspection of the area disclosed that one room contained uniforms and equipment, as well as
improperly stored chemicals, highly flammable flares and petroleum products. The other rooms
contained uniforms, equipment and supplies, including moldy rain gear, dirt-covered firefighting
equipment and tools. The OIG also discovered more than $300,000 worth of new NCCC uniforms
that were mixed in with the dirty and contaminated items. Although both NCCC officials and campus
management staff said they had been aware of the conditions, they failed to take appropriate action
to protect the Government property from loss or further damage. Campus personnel were also
unable to provide an inventory of Government property, including new and never-used items, which
dated back to July 2006.

The OIG discovered that, due to the lack of inventory controls, NCCC campus personnel continued to
receive uniforms and other unneeded equipment from the Corporation and its vendors, which were
then stored without accountability. No effort was apparently made by campus officials to halt this
practice. The OIG’s investigation further found a windowed passenger van, parked in an open area,
which contained more than $26,000 worth of new NCCC uniforms -- a magnet for theft. We also
discovered in the storage rooms 10 new computers, shipped to the campus in September 2007 and
still in their sealed shipping boxes, and miscellaneous used computers and computer equipment
pending disposition.

After OIG notified Corporation management of the conditions at the campus, NCCC management had
the contaminated clothing and equipment removed from the area. The debris filled 13 large garbage
bags. The total loss to the Government is still undetermined. Due to the mold and noticeable odors,
Corporation management also hired a firm to conduct air and environmental sampling in the storage
area. The testing resulted in a positive reading for mole spores in two of the rooms.

The OIG is following up on this situation and working with Corporation management to safeguard and
protect NCCC property purchased with taxpayer funds.

                                                         Sum mary Of Cases
Opened and Closed
   Cases Open at Beginni ng of Reporting Period                                                                       32
   New Cases Opened                                                                                                   24
   Cases Closed this Period With Significant Findings                                                                 8
   Cases Closed this Period With No Significant Findings                                                              15
   Total Cases Closed                                                                                                 23
   Cases Open at End of Reporting Period                                                                              33
Referred
   Cases Referred for Prosecution                                                                                     2
   Cases Accepted for Prosecution*                                                                                    3
   Cases Declined for Prosecution*                                                                                    1
   Cases Pending Prosecutorial Review                                                                                 1
   Cases Pending Adjudication                                                                                         12
Recommendations to Management
   Investigative Recom mendations R eferred to M anagem ent                                                           20
   Investigative Recom mendations Pending Management Action this Reporting Period                                     9
   Investigative Recom mendations Pending Management Action from Previous Reporting
                                                                                                                      4
   Periods

*Th is in clude s ca ses ref erre d f or prose cut io n d uring th e p re vious re po rtin g p eriod .




October 1, 2008 – March 31, 2009                                                                                           15
                            Review Of Legislation And
                                         Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the cost and efficiency of the
                   Corporation’s administration of its programs and
                   operations.     It   also     reviews      and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




October 1, 2008 – March 31, 2009                                       17
                               Review Of Legislation And Regulations


Reauthorization

 During this reporting period, Congress introduced and passed the Edward M. Kennedy Serve
 America Act, which reauthorized the Corporation, and amended as well as added certain sections to
 the National and Community Service Trust Act of 1993. The Act was subsequently signed into law by
 President Obama. At the request of Senate staff, we provided various suggestions about the Act.
 Both before and after its adoption, the OIG studied the legislation and the accompanying House
 Report for their ramifications on current OIG audit programs and our efforts to prevent and detect
 fraud, waste and abuse. We will complete our comprehensive review of the Act substantially before
 its scheduled effective date, October 1, 2009.




 October 1, 2008 – March 31, 2009                                                           19
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2008 – March 31, 2009                                    21
                                                                                       Tables

I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         28
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        15

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      24
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      25
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      26
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        27
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             8
                   General disagrees




 October 1, 2008 – March 31, 2009                                                            23
Tables

II.            Audit List

                                        October 1, 2008-March 31, 2009
      Report                                                              Dollars          Dollars Funds Put
                                     Report Name
      Number                                                             Questioned     Unsupport To Better
                                                                               (Dollars in thousands)
       09-01     Audit of the Corporation for National and Community         0             0          0
                 Service's Fiscal Year 2008 Financial Statements
       09-02     Audit of the Corporation for National and Community         0             0          0
                 Service's Trust Schedule of Fiscal 2008 Budgetary
                 Resources and Obligations
       09-03     Corporation Internet Use & Information Privacy Study        0             0          0
                 Report
       09-04     Agreed-Upon Procedures of Corporation for National          24            4         12
                 and Community Service Grants Awarded to Jumpstart
                 for Young Children, Inc.
       09-05     AmeriCorps Compilation of Findings, Reports Issued          0             0          0
                 April 1, 2005 through December 31, 2007
       09-06     Agreed-Upon Procedures for Corporation for National         0             0          0
                 and Community Service Grants Awarded to the Elvirita
                 Lewis Forum
       09-07     Agreed-Upon Procedures for Corporation for National         62            56        38
                 and Community Service Grants Awarded to The Corps
                 Network
       09-08     Agreed-Upon Procedures Review of Education Award            13            0          7
                 Program Grants to Western Washington University-
                 Washington Campus Compact
       09-09     Agreed-Upon Procedures of Corporation for National          8             0          0
                 and Community Service Grants Awarded to National
                 Council of La Raza
       09-31     Federal Information System Management Act (FISMA)           0             0          0
                 Review of FY 2008 for the Corporation for National
                 and Community Service
                                        TOTAL                               $107          $60        $57
  Inspector General Act [5(a)(6)]




  24                                                           October 1, 2008 – March 31, 2009
                                                                                                Tables

III.          Reports With Questioned Costs


                                                                      Federal Costs

                    Report Category                     Number Questioned         Unsupported
                                                                      (Dollars in thousands)
       A. Reports for which no management decision        11          $807                          $133
          had been made by the commencement of this
          reporting period

       B. Reports issued during the reporting period      4           $106                           $59

   C. Total Reports (A + B)                               15          $913                          $192

   D. Reports for which a management decision             7           $724                          $131
      was made during the reporting period

          I. Value of disallowed costs                                $610                          $105

          II. Value of costs not disallowed                           $114                           $26

       E. Reports for which no management decision        8           $189                           $61
          had been made or for which the OIG is
          reviewing the proposed management
          decision at the end of the reporting period
          (C minus D)*

       F. Reports with questioned costs for which no      1            $70                            $0
          management decision or proposed
          management decision was made within six
          months of issuance
     * Proposed Management Decisions under OIG
       review (See Table VII)                             3            $14                           $2
  Inspector General Act [5(a)(8)]




  October 1, 2008 – March 31, 2009                                                             25
Tables

IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                     Report Category                    Number         Dollar Value
                                                                  (Dollars in thousands)
      A. Reports for which no management decision         11               $1,424
         had been made by the commencement of
         this reporting period

      B. Reports issued during the reporting period       3                 $56

      C. Total Reports                                    14               $1,480

      D. Reports for which a management decision          7                $865
         was made during the reporting period

          i. Value of recommendations agreed to by                         $415
          management

          ii. Value of recommendations not agreed to                       $450
          by management

      E. Reports for which no management decision         7                $615
         had been made by the end of the reporting
         period or for which the OIG is reviewing the
         management decision at the end of the
         reporting period (C minus D)*

      F. Reports with recommendations that funds          1                 $83
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance
      *
      Proposed Management Decisions under                 3                $475
      review (see Table VII)
 Inspector General Act [5(a)(9)]




 26                                                            October 1, 2008 – March 31, 2009
                                                                                                        Tables

V.            Summary of Audits With Overdue Management Decisions



                                                                         Mgmt.         Status at End of
     Report                                           Federal Dollars   Decision       Reporting Period
     Number                   Title                    Questioned         Due             (03/31/09)

      08-11         Agreed-Upon Procedures for            $1,600        1/14/2009 A Proposed Management
                    Corporation for National and                                  Decision was received on
                Community Service Grant Awarded                                   March 16, 2009. The PMD is
               to the Catholic Network of Volunteer                               currently under review.
      08-22         Agreed-Upon Procedures of             $3,708         2/9/2009 A Proposed Management
                    Corporation for National and                                  Decision was received on
               Community Service Grants Awarded                                   March 30, 2009. The PMD is
                 to the Arab Community Center for                                 currently under review.
                   Economic and Social Services

      08-21    Agreed-Upon Procedures Review of           $8,000        2/19/2009 A Proposed Management
                   Corporation for National and                                   Decision was received on
                  Community Service Education                                     March 31, 2009. The PMD is
                    Award Program Grants to                                       currently under review.
               Mississippi Department of Education

      08-20 Agreed-Upon Procedures Review of              $69,616       3/5/2009 A Proposed Management
                Corporation for National and                                     Decision has not been provided
               Community Service Education                                       to the OIG.
              Award Program Grants to Regis
               University-Colorado Campus
                          Compact
    08-23        Status of the Corporation's                $0          3/25/2009 A Proposed Management
               Implementation of Homeland                                         Decision has not been provided
            Security Presidential Directive/HSPD-                                 to the OIG.
                              12
                            Total                         $82,924
 Inspector General Act [5(a)(10)]




 October 1, 2008 – March 31, 2009                                                                    27
Tables

VI.       Reports Described In Prior Semiannual Reports
          Without Final Action


      Report                                                    Final
      Number                       Title         Date Issued Action Due
                                   None



 Inspector General Act [5(a)(3)]




 28                                        October 1, 2008 – March 31, 2009
                                                                                            Tables

VII.     Proposed Management Decisions Under Review


                                                  Federal   Funds Put                 Status at End of
   Report                                          Dollars  To Better MD Due Date PMD Reporting Period
   Number                  Title                 Questioned    Use     Date Received     (03/31/09)

       08-11     Agreed-Upon Procedures for                                                The OIG is currently
                 CNCS Grant Awarded to the                                                 reviewing the proposed
                                                     $2        $24   1/14/2009   3/16/2009
                 Catholic Network of Volunteer                                             management decision
                            Service                                                        (PMD).
       08-22      Agreed-Upon Procedures of                                                The OIG is currently
               CNCS Grants Awarded to the Arab                                             reviewing the proposed
                                                     $4        $57    2/9/2009   3/30/2009
                Community Center for Economic                                              management decision
                       and Social Services                                                 (PMD).
       08-21   Agreed-Upon Procedures Review                                               The OIG is currently
                   of CNCS Education Award                                                 reviewing the proposed
                                                     $8       $394   2/19/2009   3/31/2009
                 Program Grants to Mississippi                                             management decision
                    Department of Education                                                (PMD).
                             Total                  $14       $475




  October 1, 2008 – March 31, 2009                                                       29
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
